VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                      Inspection of

                                                                    VA Regional Office

                                                                     Atlanta, Georgia





                                                                                  August 5, 2014
                                                                                   14-00902-207

                                 ACRONYMS


FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
SMC          Special Monthly Compensation
TBI          Traumatic Brain Injury
VA           Veterans Affairs
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations:

                           Telephone: 1-800-488-8244

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline)

                       Report Highlights: Inspection of VA
                       Regional Office Atlanta, GA

Why We Did This Review                            VARO managers ensured Systematic
                                                  Analyses of Operations were complete,
The Veterans Benefits Administration              timely, and contained the analysis and
(VBA) has 56 VA Regional Offices                  recommendations needed to address
(VAROs) and a Veterans Service Center in          deficiencies. However, VARO staff delayed
Cheyenne, Wyoming, that process disability        completing 16 of 30 benefit reduction cases
claims and provide a range of services to         because management assigned staff to
veterans. We evaluated the Atlanta VARO           address other priorities.     We did not
to see how well it accomplishes this mission.     substantiate an anonymous allegation
We also assessed the merits of a complaint        concerning deceptive mail management
involving    deceptive      VARO        mail      practices at the Atlanta VARO.
management practices.
                                                  What We Recommended
What We Found
                                                  We recommended the VARO Director
Overall, VARO staff did not accurately            develop and implement a plan to ensure staff
process 34 (38 percent) of 90 disability          take timely action on reminder notifications
claims reviewed. We sampled claims we             for medical reexaminations; review and take
considered at higher risk of processing           appropriate action on the 776 temporary
errors, thus these results do not represent the   100 percent disability evaluations remaining
overall accuracy of disability claims             from our inspection universe; ensure
processing at this VARO.                Claims    effective second-signature reviews and
processing that lacks compliance with VBA         training on processing TBI, special monthly
procedures can result in the risk of paying       compensation, and ancillary benefits claims;
inaccurate and unnecessary financial              and develop a plan to prioritize actions on
benefits.                                         benefit reduction cases.

Seventeen of 30 temporary 100 percent             Agency Comments
disability evaluations reviewed were
inaccurate. Generally, the errors occurred        The VARO Director concurred with all
because VARO staff did not take timely            recommendations and the planned corrective
action on reminder notifications for medical      actions are responsive. We will follow up
reexaminations. VARO staff incorrectly            on these actions, as deemed appropriate.
processed 8 of 30 traumatic brain injury
(TBI) claims because oversight was lacking
to ensure staff complied with VBA’s
second-signature policy.        Further, staff
incorrectly processed 9 of 30 special                      LINDA A. HALLIDAY
monthly compensation and ancillary benefits             Assistant Inspector General
claims due to a lack of training.                       for Audits and Evaluations
                                           TABLE OF CONTENTS


Introduction......................................................................................................................................1


Results and Recommendations ........................................................................................................2


    I. Disability Claims Processing ..................................................................................................2


            Finding 1	           Atlanta VARO Needs To Improve Disability Claims Processing

                                 Accuracy ......................................................................................................2


                                 Recommendations......................................................................................11


  II. Management Controls...........................................................................................................13


            Finding 2	           VARO Lacked Oversight To Ensure Immediate Action On Benefit

                                 Reductions..................................................................................................14


                                 Recommendation .......................................................................................15


 III. Review of Allegations of Deceptive Mail Management Practices .......................................16


Appendix A                 VARO Profile and Scope of Inspection ............................................................18


Appendix B                 Inspection Summary..........................................................................................20


Appendix C                 VARO Director’s Comments............................................................................21


Appendix D                 OIG Contact and Staff Acknowledgments........................................................25


Appendix E                 Report Distribution ...........................................................................................26

                                                               Inspection of the VARO Atlanta, GA



                    INTRODUCTION
Objective	          The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Other	                 Appendix A includes details on the VARO and the scope of our
Information             inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the Atlanta VARO Director’s comments on a draft
                       of this report.




VA Office of Inspector General                                                                 1
                                                                        Inspection of the VARO Atlanta, GA



                      RESULTS AND RECOMMENDATIONS
                      I. Disability Claims Processing

Claims                The OIG Benefits Inspection team focused on accuracy in processing
Processing            temporary 100 percent disability evaluations, traumatic brain injury (TBI)
Accuracy
                      claims, and special monthly compensation (SMC) and ancillary benefits. We
                      evaluated these claims processing issues and their effect on veterans’
                      benefits.

Finding 1	            Atlanta VARO Needs To Improve Disability Claims Processing
                      Accuracy
                      The Atlanta VARO did not consistently process temporary 100 percent
                      disability evaluations, TBI-related cases, or entitlement to SMC and ancillary
                      benefits. Overall, VARO staff incorrectly processed 34 of the total
                      90 disability claims we sampled, resulting in 327 improper monthly
                      payments to 11 veterans totaling $386,013.

                      We sampled claims related to specific conditions that we considered at
                      higher risk of processing errors. As a result, the errors identified do not
                      represent the universe of disability claims or the overall accuracy rate at this
                      VARO. The table below reflects the errors affecting, and those with the
                      potential to affect, veterans’ benefits processed at the Atlanta VARO.

                       Table 1. Atlanta VARO Disability Claims Processing Accuracy
                                                       Claims                Claims
                                                     Inaccurately         Inaccurately           Claims
                  Type of            Claims           Processed:            Processed          Inaccurately
                  Claim             Reviewed           Affected           :Potential To         Processed:
                                                      Veterans’          Affect Veterans’         Total
                                                       Benefits              Benefits
             Temporary 100
             Percent Disability        30                  4                 13                17
             Evaluations
             TBI Claims                30                  2                  6                 8
             SMC and Ancillary
                                       30                  5                  4                 9
             Benefits
              Total                    90                  11                23                34
             Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at least
             18 months, TBI disability claims completed in the fourth quarter fiscal year (FY) 2013, and SMC
             and ancillary benefits claims completed in FY 2013




VA Office of Inspector General                                                                                 2
                                                                 Inspection of the VARO Atlanta, GA


Temporary           VARO staff incorrectly processed 17 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a veteran’s service-connected disability following
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, VSC staff must input
                    suspense diaries in VBA’s electronic system. A suspense diary is a
                    processing command that establishes a date when VSC staff must schedule a
                    medical reexamination. As a suspense diary matures, the electronic system
                    generates a reminder notification to alert VSC staff to schedule the medical
                    reexamination. VSC staff then have 30 days to process the reminder
                    notification by establishing an appropriate control to initiate action.

                    Without effective management of these temporary 100 percent disability
                    evaluation ratings, VBA is at increased risk of paying inaccurate financial
                    benefits. Available medical evidence showed 4 of the 17 processing errors
                    we identified affected benefits and resulted in 116 improper monthly
                    overpayments to 4 veterans totaling $139,052. These improper payments
                    occurred from June 2009 until January 2014.

                    Details follow on the 17 cases we identified with errors.

                    	 The most significant overpayment occurred when a Rating Veterans
                       Service Representative (RVSR) assigned a temporary 100 percent
                       disability evaluation for a veteran’s heart condition in a December
                       2008 rating decision. In that decision, the RVSR determined an
                       immediate examination was required to assess the current level of
                       impairment following the veterans’ surgery; however, VARO staff did
                       not request the VA examination. In June 2012, while reviewing the
                       veterans’ claims folder for another claim, VARO staff did not identify
                       that the required examination had never occurred. Available VA medical
                       treatment records showed the veteran did not have residual disabilities
                       following the heart surgery in 2007. Because VARO staff missed two
                       opportunities to schedule the required VA examination, the veteran was
                       overpaid $89,593 over a period of 4 years and 7 months.

                    	 The most significant underpayment occurred when an RVSR did not
                       grant a veteran entitlement to additional special monthly benefits based
                       on evaluations of multiple disabilities and for loss of use of a creative
                       organ, as required. As a result, the veteran was underpaid $19,154 over a
                       period of 3 years and 9 months.




VA Office of Inspector General                                                                   3
                                                                 Inspection of the VARO Atlanta, GA


                    	 Eight errors occurred when VARO staff delayed requesting required
                       medical reexaminations after receiving reminder notifications to do so.
                       VBA policy requires VARO staff to establish appropriate work product
                       controls in the electronic system within 30 days to ensure requests for
                       reexaminations are processed. On average, approximately 6 months
                       elapsed from the time staff should have requested the examinations until
                       January 2014.
                    	 Four errors occurred when VARO staff cancelled reminder notifications
                       to request required reexaminations but did not take action to have the
                       examinations scheduled. The claims folders also did not contain the
                       documentation needed to explain the reason staff cancelled the required
                       reexaminations. Generally, once reminder notifications are removed
                       from the electronic system, VARO staff lose the ability to manage
                       requests for reexamination. As such, a temporary 100 percent disability
                       evaluation has the potential to continue throughout a veteran’s lifetime
                       until an action on the claim by the veteran or VBA calls the case into
                       question again.
                    	 Two errors occurred when VARO staff proposed reducing veterans’
                       evaluations for medical conditions that had improved, but did not take
                       final actions to reduce the benefits. In January 2014, at the time of our
                       inspection, more than 1 year had passed and VARO staff still had not
                       taken action to reduce these benefits.
                    	 One error occurred when VARO staff did not take timely action to
                       schedule a veteran’s hearing request related to a proposed benefit
                       reduction. VBA policy allows staff to extend the proposal period for
                       benefit reductions by 30 to 60 days if a hearing is requested. In this case,
                       the veteran requested the hearing more than 10 months prior to our
                       inspection, yet no hearing had been scheduled and the final benefit
                       reduction did not occur.

                    Thirteen of the total 17 errors had the potential to affect veterans’ benefits.
                    Neither we nor VARO staff could determine whether the evaluations would
                    have continued because the veterans’ claims folders did not contain the
                    medical evidence needed to evaluate each case.

                    Most frequently, the processing inaccuracies resulted from a lack of VARO
                    management oversight to ensure staff took timely action to schedule medical
                    reexaminations upon receipt of reminder notifications. An average of
                    13 months elapsed from the time staff should have scheduled the medical
                    reexaminations until January 2014. As a result of the delays in obtaining the
                    medical evidence needed to reevaluate each case, improper disability
                    benefits payments may have occurred.

                    VARO management disagreed with our assessment in 14 of the 17 cases we
                    identified as having errors. Although we referenced VBA policy indicating

VA Office of Inspector General                                                                   4
                                                                Inspection of the VARO Atlanta, GA


                    that VARO staff have 30 days to process reminder notifications, VARO
                    management did not agree a timeliness standard for processing reminder
                    notifications existed. Both VARO staff and management also indicated that
                    their priority was on processing the oldest rating-related compensation
                    claims rather than processing reminder notifications and taking actions to
                    request medical reexaminations.

Follow-Up to        In our previous inspection report, Inspection of the VA Regional Office,
Prior VA OIG        Atlanta, Georgia (Report No. 11-00512-179, May 27, 2011), VARO staff
Inspection          incorrectly processed 24 (80 percent) of 30 temporary 100 percent disability
                    evaluations we reviewed. The majority of the errors occurred because
                    management did not provide adequate oversight to ensure VSC staff entered
                    suspense diaries in the electronic record to ensure they received reminder
                    notifications to schedule VA medical reexaminations. During our inspection
                    work at the Atlanta VARO in January 2014, we did not identify any errors
                    where staff did not enter suspense diaries in the electronic record.

                    In our prior May 2011 inspection, the second most frequent processing
                    inaccuracy involved VSC staff not following up on reminder notifications or
                    proposals to reduce disability benefits. In response to our recommendations
                    for improvement, VARO staff amended the workload management plan and
                    designated responsibility for reviewing and processing medical
                    reexamination reminder notifications. Consequently, the OIG closed this
                    recommendation in December 2011.

                    During this inspection, 11 of the 17 inaccuracies we identified involved VSC
                    staff not following up on reminder notifications or proposals to reduce
                    benefits. In November 2012, the VARO updated its workload management
                    plan to no longer designate responsibility for reviewing and processing
                    reminder notifications for medical follow-up. Further, VARO management
                    acknowledged there was no local guidance in place for processing reminder
                    notifications. As such, we concluded the VARO did not fully implement
                    corrective actions they agreed to take in response to our 2011 inspection
                    report.
TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities. Additionally,
                    VBA policy requires that employees assigned to the appeals team, the special
                    operations team, and the quality review team complete TBI training.

                    In response to a recommendation in our summary report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report No.
                    11-00510-67, May 18, 2011), VBA agreed to develop and implement a
                    strategy for ensuring the accuracy of TBI claims decisions. In May 2011,

VA Office of Inspector General                                                                  5
                                                                Inspection of the VARO Atlanta, GA


                    VBA provided guidance to VARO Directors to implement a policy requiring
                    a second signature on each TBI case an RVSR evaluates until the RVSR
                    demonstrates 90 percent accuracy in TBI claims processing. The policy
                    indicates second-signature reviewers come from the same pool of staff as
                    those used to conduct local station quality reviews.

                    We determined VARO staff incorrectly processed 8 of 30 TBI claims;
                    2 affected veterans’ benefits and resulted in 26 improper monthly payments
                    totaling $8,223, from March 2012 to January 2014. Generally, errors in
                    processing TBI claims occurred because VARO management did not have
                    oversight procedures in place to ensure staff complied with VBA’s second-
                    signature review policy. As a result, veterans received incorrect benefit
                    payments. Following are details related to the two errors affecting veterans’
                    benefits payments. Both errors involved overpayments.

                    	 An RVSR incorrectly granted a veteran a separate evaluation for
                       residuals of TBI when there was an existing co-morbid mental disorder
                       for which an examiner could not delineate symptoms. In cases where
                       medical examiners cannot make such delineations, VBA policy requires
                       that staff use the symptoms to establish a single disability evaluation.
                       Because the RVSR did not follow the policy, the veteran was overpaid
                       $4,213, spanning a period of 1 year and 9 months. VARO staff did not
                       agree with our assessment in this case, stating that VA policy was not
                       clear about what to do in situations when examiners identify additional
                       symptoms. Management indicated that in cases where RVSRs cannot
                       determine which symptoms are related to each disability, they
                       compensate the veterans for all of the symptoms.
                    	 A $4,010 overpayment occurred when an RVSR used the incorrect date
                       to establish benefits for a TBI-related disability. The RVSR used a date
                       that preceded the veteran’s claim for the condition by approximately
                       5 months.

                    The remaining six of eight errors had the potential to affect veterans’
                    benefits. Details on the six cases follow.

                    	 In two cases, RVSRs erroneously assigned separate evaluations for TBI
                       and coexisting mental disorders, although the examiners indicated the
                       symptoms for each condition could not be separated. VARO staff agreed
                       with one error, but disagreed with our assessment in the other case. Staff
                       said VBA’s training letter did not provide clear instructions on how to
                       evaluate TBI-related disability claims when symptoms overlap between
                       the TBI injury and a mental disorder. Further, VARO management
                       stated VBA instructions only clearly addressed what RVSRs should do in
                       cases where medical examiners could not differentiate which symptoms
                       were attributable to which condition. According to VARO management,
                       RVSRs did their best to process the cases using the unclear instructions


VA Office of Inspector General                                                                  6
                                                                Inspection of the VARO Atlanta, GA


                        VBA had provided. We referenced VBA guidance that specifically
                        showed how to address symptoms that overlap between TBI injuries and
                        coexisting mental disorders.
                    	 In four other cases, VARO staff prematurely evaluated TBI residuals
                       using insufficient medical examination reports. According to VBA
                       policy, VARO staff are required to return insufficient examination
                       reports to the issuing clinics or health care facilities for clarification.
                       Neither VARO staff nor we can ascertain all of the residual disabilities of
                       a TBI without adequate or complete medical evidence. Details on the
                       four cases evaluated using insufficient examinations follow.
                        o	 The results from two veterans’ TBI examinations indicated that
                           separate examinations for headaches were needed; however, the
                           examinations for headaches were not completed as required. We
                           determined the existing medical evidence was insufficient to evaluate
                           the disability claims; however, VARO staff disagreed with our
                           assessments. Despite VBA policy requirements, staff concluded that
                           in the absence of diagnoses for headaches, separate examinations
                           were not necessary.
                        o	 A veteran reported symptoms of memory loss during a VA medical
                           examination; however, in the same examination report the medical
                           examiner indicated the veteran did not complain of memory
                           problems. VARO staff disagreed with our assessment, because
                           neither the TBI examiner nor the mental health examiner provided
                           diagnoses of TBI-related residuals. Further, the TBI examiner
                           provided conflicting information that according to VBA policy
                           needed to be resolved before being used to evaluate the disability
                           claim. Despite conflicting information related to the veteran’s
                           memory, the RVSR used the examination results to deny
                           compensation benefits for the veteran’s TBI related disabilities.
                        o	 Another veteran underwent two separate TBI examinations that
                           provided different findings. Rather than returning the examination
                           reports for clarification as required, the RVSR used the results to
                           evaluate the veteran’s TBI-related disabilities. VARO staff disagreed
                           with our assessment, stating that although one examination was
                           conducted by a medical doctor, a second examination conducted by a
                           psychiatrist provided additional information with regard to the
                           veteran’s overall disability picture. VARO staff could not explain
                           why two examinations were completed.

                    Although VARO management implemented a second-signature requirement
                    for all TBI ratings, it did not track the accuracy of individual RVSRs to
                    ensure they met the 90 percent accuracy requirement. All eight cases we
                    identified with processing errors were decided by RVSRs who had been
                    approved to rate TBI cases independently. However, VARO managers could
                    not demonstrate the RVSRs had attained the required 90 percent accuracy

VA Office of Inspector General                                                                  7
                                                                 Inspection of the VARO Atlanta, GA


                    rate to do so. Further, VARO managers did not track errors identified during
                    the local second-signature reviews and therefore could not identify trends
                    and issues for local training.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Atlanta,
Prior VA OIG        Georgia (Report No.11-00512-179, May 27, 2011), we determined 16 of
Inspection
                    30 TBI cases reviewed contained processing errors. We attributed the errors
                    to inadequate training. Specifically, staff had not received instruction since
                    December 2008, despite new training materials and guidance published in
                    January 2009. In response to our recommendations, the Director agreed to
                    ensure RVSRs receive refresher training on TBI claims processing and
                    implemented a requirement mandating second-signature reviews of all TBI
                    claims. As a result, the OIG closed the recommendations in October and
                    December 2011.

                    Because the results of our 2014 benefits inspection disclosed similar
                    problems, we concluded that the corrective actions in response to our
                    2011 report were inadequate. Despite refresher training and implementation
                    of a secondary review for TBI claims, this inspection still showed an
                    unacceptable TBI claims processing error rate. The errors identified were
                    the result of inadequate VARO management oversight to ensure staff
                    complied with VBA’s second-signature review policy. Had management
                    ensured RVSRs met the required 90 percent accuracy rate prior to rating TBI
                    claims independently, management may have prevented the errors. Further,
                    had management monitored and trended the types of errors identified during
                    the secondary reviews, it may have been able to tailor the training to address
                    VARO-specific claims processing deficiencies.

Special             As the concept of rating disabilities evolved, VBA realized that for certain
Monthly             types of disabilities, the basic rate of compensation was not sufficient for the
Compensation        level of disability present. Therefore, VBA established SMC to recognize
and Ancillary       the severity of certain disabilities or combinations of disabilities by adding
Benefits
                    additional compensation to the basic rate of payment. SMC represents
                    payments for “quality of life” issues such as the loss of an eye or limb, or the
                    need to rely on others for daily life activities like bathing or eating.

                    Generally, VBA grants entitlement to SMC when the following conditions
                    exist:

                    	 Anatomical loss or loss of use of specific organs, sensory functions, or
                       extremities
                    	 Disabilities that render the veteran permanently bedridden or in need of
                       aid and attendance
                    	 Combinations of severe disabilities that significantly affect locomotion



VA Office of Inspector General                                                                    8
                                                                  Inspection of the VARO Atlanta, GA


                    	 Existence of multiple, independent disabilities that are evaluated as 50 to
                       100 percent disabling
                    	 Existence of multiple disabilities that render the veteran in need of such a
                       degree of special skilled assistance that without it, the veteran would be
                       permanently confined to a skilled-care nursing home

                    Ancillary benefits are secondary benefits that are considered when evaluating
                    claims for SMC. Examples of ancillary benefits are:

                    	 Dependents’ Educational Assistance under chapter 35, title 38, United
                       States Code
                    	 Specially Adapted Housing benefits
                    	 Special Home Adaptation Grant
                    	 Automobile and Other Conveyance and Adaptive Equipment Allowances

                    VBA policy requires staff to address the issues of SMC and ancillary
                    benefits whenever they can grant entitlement. We examined whether VARO
                    staff accurately processed entitlement to SMC and ancillary benefits
                    associated with anatomical loss or loss of use of two or more extremities, or
                    bilateral blindness with visual acuity of 5/200 or worse.

                    VARO staff incorrectly processed 9 of 30 veterans’ claims involving SMC
                    and ancillary benefits—5 errors affected veterans’ benefits and resulted in
                    185 improper monthly payments totaling over $238,738 from November
                    2006 until January 2014. The remaining four cases had the potential to
                    affect veterans’ benefits—three of the errors were related to hospital codes
                    that necessitate adjusting veterans’ benefits upon hospitalization. The
                    remaining SMC coding error did not affect the veterans’ overall monthly
                    benefit; however, if left uncorrected future benefits may be affected.

                    Generally, errors occurred because VARO managers did not ensure all
                    claims processing staff received refresher training on SMC determinations.
                    Most of the RVSRs we interviewed stated they had not received SMC
                    training within the last year; others stated it had been several years since they
                    received refresher training. We confirmed that VARO staff assigned to the
                    Special Operations team received higher level/advanced training on SMC in
                    November 2012, but SMC claims processing was not limited to that Special
                    Operations team. Staff from the Special Operations team completed two of
                    the cases with errors; staff assigned to teams that did not receive the SMC
                    training were responsible for the remaining seven errors. As a result of the
                    lack of staff training to support accurate SMC determinations, some veterans
                    received improper benefit payments.




VA Office of Inspector General                                                                     9
                                                                 Inspection of the VARO Atlanta, GA


                    Details follow on the cases we identified with errors.

                    	 The most significant overpayment occurred when an RVSR incorrectly
                       granted a 100 percent disability evaluation for a veteran’s service
                       connected diplopia eye condition. However, the medical examination
                       revealed the veteran’s disability only warranted a 20 percent evaluation.
                       In addition, the RVSR incorrectly granted entitlement for SMC based on
                       blindness and multiple disabilities evaluated at 50 percent or more. The
                       RVSR also incorrectly established ancillary benefits for an Automobile
                       and Adaptive Equipment Allowance worth up to $19,817, along with a
                       Special Home Adaptation Grant. As a result, the veteran was overpaid
                       $202,447 over a period of 7 years and 2 months.
                    	 The most significant underpayment occurred when an RVSR assigned an
                       incorrect effective date for entitlement to SMC for a cardiovascular
                       condition. As a result, the veteran was underpaid $23,189 over a period
                       of 9 months.
                    	 In four cases, RVSRs used incorrect SMC codes that did not accurately
                       reflect the levels of impairment for the veterans’ disabilities. Generally,
                       RVSRs did not assign correct SMC codes to reflect multiple,
                       independent disabilities, evaluated as 50 percent or more disabling. As a
                       result, the veterans did not always receive accurate payments. VARO
                       management agreed with our assessments in three of the four cases. In
                       the remaining case, management stated the medical evidence provided
                       did not show the veteran needed skilled care and, as such, determined a
                       VA examination was not required. However, the medical evidence from
                       the veterans private physician clearly showed the veteran needed skilled
                       care. VBA policy requires RVSRs to consider the probative value of all
                       medical evidence, whether it comes from a private physician or a VA
                       examination.
                    	 Three errors occurred when RVSRs incorrectly entered hospital codes for
                       the veterans’ SMC in the electronic record. Generally, VBA policy
                       requires VSC staff to adjust SMC payments when veterans are
                       hospitalized at Government expense. If left uncorrected, erroneous
                       payments to the veterans may occur. VARO management disagreed with
                       our assessment in these three cases because the coding errors did not
                       affect the veterans’ current monthly benefits.

                    Additionally, VBA policy allows the VSC manager the discretion to require
                    a second-level review for SMC cases. The Atlanta VARO designated
                    supervisory coaching staff to conduct second-signature reviews for all
                    higher-level SMC claims. Staff we interviewed indicated they were aware of
                    the VARO’s second-signature review policy, but some staff lacked
                    confidence in the quality of those reviews because some of the reviewers did
                    not have RVSR experience. Of the nine cases we identified with errors,
                    three had second-signature reviews conducted by coaches without RVSR

VA Office of Inspector General                                                                  10
                                                                Inspection of the VARO Atlanta, GA


                    experience and five cases did not undergo second-level reviews at all. The
                    remaining error addressed entitlement to education benefits and did not
                    require a second-level review.

                    Recommendations

                    1.	 We recommended the Atlanta VA Regional Office Director develop and
                        implement a plan to ensure timely and appropriate action on reminder
                        notifications for medical reexaminations.

                    2.	 We recommended the Atlanta VA Regional Office Director develop and
                        implement a plan to review for accuracy the 776 temporary 100 percent
                        disability evaluations remaining from our inspection universe.

                    3.	 We recommended the Atlanta VA Regional Office Director provide
                        refresher training for staff on processing traumatic brain injury claims
                        and implement a plan to monitor the effectiveness of this training.

                    4.	 We recommended the Atlanta VA Regional Office Director develop and
                        implement a plan to ensure staff comply with the Veterans Benefits
                        Administration’s second-signature requirements for traumatic brain
                        injury claims, including tracking and trending errors in processing these
                        claims to identify local training needs.

                    5.	 We recommended the Atlanta VA Regional Office Director develop and
                        implement a plan to ensure staff receive refresher training on identifying
                        and returning insufficient medical examination reports related to
                        traumatic brain injury claims to medical facilities for correction.

                    6.	 We recommended the Atlanta VA Regional Office Director ensure
                        claims processing staff receive refresher training on processing special
                        monthly compensation and ancillary benefits.

                    7.	 We recommended the Atlanta VA Regional Office Director promote staff
                        awareness of the second-signature review policy for processing special
                        monthly compensation and ancillary benefits and ensure that qualified
                        staff conduct the secondary reviews.

Management          The VARO Director concurred with our recommendations. The Director
Comments            designated responsibility for processing reminder notifications to schedule
                    medical reexaminations and provided refresher training on processing the
                    reminders on July 1, 2014. VARO staff are expected to conduct initial
                    reviews and take required development actions on the 776 temporary
                    100 percent disability evaluations remaining from our inspection universe by
                    July 31, 2014.




VA Office of Inspector General                                                                 11
                                                               Inspection of the VARO Atlanta, GA


                    Refresher training on TBI claims processing is planned to take place by
                    August 2014, with additional training slated to take place twice each year
                    beginning in FY 2015. The effectiveness of the TBI training will be tracked
                    and monitored based on second-signature reviews; however, regardless of
                    individual employee accuracy, secondary reviews for all TBI cases will be
                    conducted by staff assigned to the Quality Review Team. Additionally,
                    refresher training on SMC cases is expected to be completed by
                    July 31, 2014, and annually thereafter. The Director also mandated all
                    higher level SMC cases will be second-signed by staff assigned to the
                    Quality Review Team. The QRT team will track SMC errors to identify
                    annual SMC training needs.

OIG Response        The Director’s planned actions to address the recommendations are
                    responsive.




VA Office of Inspector General                                                                12
                                                                Inspection of the VARO Atlanta, GA


                   II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support analyses and recommendations identified within each SAO.
                    An SAO is a formal analysis of an organizational element or operational
                    function. SAOs provide an organized means of reviewing VSC operations to
                    identify existing or potential problems and to propose corrective actions.
                    VARO management must publish annual SAO schedules designating the
                    staff required to complete the SAOs by specific dates. The VSC manager is
                    responsible for ongoing analysis of VSC operations, including completing
                    11 SAOs annually.

                    VARO staff completed all 11 mandated SAOs timely according to the SAO
                    schedule. All SAOs contained the required elements, included thorough
                    analyses using appropriate data, identified weaknesses or concerns, and
                    provided recommendations for improvement when needed.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Atlanta,
Prior VA OIG        Georgia (Report No. 11-00512-179, May 27, 2011), we indicated the
Inspection
                    majority of SAOs reviewed were incomplete and/or untimely due to
                    inadequate VARO oversight. The Director agreed to monitor the effectiveness
                    of the VARO’s newly implemented SAO policy to ensure the SAOs contained
                    the required elements and analyses.     As such, the OIG closed this
                    recommendation in September 2011.          During our January-February
                    2014 benefits inspection, we noted significant improvement in this area.
                    Therefore, we made no recommendation for improvement.

Benefit             VBA policy provides for the payment of compensation to veterans for
Reductions          conditions they incurred or aggravated during military service. The amount
                    of monthly compensation to which a veteran is entitled may change because
                    his or her service-connected disability may improve. Improper payments
                    associated with benefit reductions generally occur when beneficiaries receive
                    payments to which they are not entitled because VAROs do not take the
                    actions required to ensure correct payments for their levels of disability.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in reduction or discontinuance of current compensation payments,
                    VSC staff must inform the beneficiary of the proposed benefit reduction. In
                    order to provide beneficiaries due process, VBA allows 60 days for the
                    veteran to submit additional evidence to show that compensation payments
                    should continue at their present level. If the VARO does not receive
                    additional evidence within that period, RVSRs must make a final
                    determination to reduce or discontinue the benefit. On the 65th day following
                    due process notification, action is required to reduce the evaluation and
                    thereby minimize overpayments.

VA Office of Inspector General                                                                 13
                                                                 Inspection of the VARO Atlanta, GA


                    On April 3, 2014, subsequent to our January 2014 benefits inspection, VBA
                    leadership modified its policy regarding the processing of claims requiring
                    benefit reductions. The new policy no longer includes the requirement for
                    VARO staff to take “immediate action” to process these reductions. In lieu
                    of merely removing the vague standard, VBA should have provided clearer
                    guidance on prioritizing this work to ensure sound financial stewardship of
                    these monetary benefits. In fact, 38 Code of Federal Regulations 3.105 (e),
                    “Reduction in Evaluation-Compensation,” on which VBA’s revision of
                    rating decisions is based, also includes a timeliness standard by requiring the
                    effective date of a benefit reduction to be the last day of the month following
                    60 days from the date the payee was notified of the proposed reduction.

Finding 2	          VARO Lacked Oversight To Ensure Immediate Action On Benefit
                    Reductions

                    VARO staff delayed processing 16 of 30 claims that required rating
                    decisions to reduce or discontinue benefits. This occurred because of a lack
                    of VARO management oversight to ensure staff processed the reductions.
                    As a result, VA made 90 improper overpayments to 16 veterans from
                    November 2012 until December 2013, totaling approximately $138,364.

                    For the 16 cases with processing delays, an average of almost 6 months
                    elapsed before staff took the required actions to reduce benefits. The most
                    significant improper payment involved VARO staff proposing to reduce a
                    veteran’s benefits after medical evidence showed the medical condition had
                    improved. Staff proposed the reduction action in October 2012; however,
                    the final rating decision to reduce benefits was not made until
                    September 2013, which was 9 months beyond the date it should have
                    occurred. As a result, the veteran was overpaid approximately $26,757 in
                    improper payments.

                    VARO staff disagreed with our assessments in all 16 cases we found
                    non-compliant with VBA policy. VARO managers indicated there was no
                    regulatory guidance regarding timeliness for reducing benefits and that they
                    had to follow the priorities established by the national strategy, which
                    included reducing the inventory of VBA’s oldest pending claims. However,
                    VARO management did not address the issue of compliance with VBA
                    policy, which requires staff to identify and route proposed benefits
                    reductions for action on the 65th day following the due process period.

                    We reexamined the 16 cases; however, we continued to find the VARO
                    noncompliant with VBA’s policy to route claims with proposed reductions
                    for action following the due process period. We reemphasized that our
                    inspections identify as errors any conditions where the VAROs do not adhere
                    to VBA policy. Further, we noted the VARO’s own workload management
                    plan required staff to take action on benefits reduction notices once due
                    process had expired. We concluded that providing oversight of benefits

VA Office of Inspector General                                                                  14
                                                                 Inspection of the VARO Atlanta, GA


                    reductions is necessary to ensure sound financial stewardship and minimize
                    improper benefits payments.

                    Recommendation

                    8.	 We recommended the Atlanta VA Regional Office Director implement a
                        plan to ensure claims processing staff prioritize actions related to benefit
                        reductions to minimize improper payments to veterans.

Management          The VARO Director concurred with our recommendation. The Director
Comments            plans to update the VARO’s plan related to the benefits reduction workload
                    by July 31, 2014.

OIG Response        The Director’s planned actions to address the recommendation are
                    responsive.




VA Office of Inspector General                                                                   15
                                                                Inspection of the VARO Atlanta, GA


                    III. Review of Allegations of Deceptive Mail Management
                         Practices

                    We did not substantiate allegations concerning deceptive mail management
                    practices at the Atlanta VARO. The allegations were mailed by a
                    complainant to various Congressional recipients for consideration. Georgia
                    Senator Johnny Isakson’s staff provided a copy of the allegations to the OIG
                    for review and assessment shortly after we completed our inspection field
                    work.

Allegations         In January 2014, an anonymous complainant alleged that Atlanta VARO
                    leadership directed staff to engage in deceptive practices that misrepresented
                    the VARO’s backlog of unprocessed claims-related mail to the
                    Undersecretary for Benefits during a July 2013 office visit. The complainant
                    considered such practices a lack of regard and a breach of responsibility to
                    veterans who placed their trust in the Atlanta VARO to ensure just
                    compensation for injuries, illness, and disease incurred during military
                    service. Specifically, the complaint alleged that VARO staff:

                    	 Boxed and sealed unprocessed, claims-related mail for the purpose of
                       hiding the mail from the Undersecretary for Benefits during her July
                       2013 visit to the regional office
                    	 Mislabeled the boxes as “drop mail” and, as directed, advised the Under
                       Secretary that this mail was being shipped for scanning to the Newnan,
                       Georgia scanning facility
                    	 Intentionally did not take the Under Secretary for Benefits into some
                       areas of the VARO where the mail was hidden
                    	 Unpacked and placed the mail in file cabinets, on shelves, and on the
                       floor after the Under Secretary left the VARO

Work                In March 2014, we conducted an unannounced visit to the Atlanta VARO to
Performed           assess the merits of these allegations. We completed our inspection of the
                    Atlanta VARO in February 2014, but were not made aware of the allegations
                    until March 2014. As such, we determined a repeat visit to the Atlanta
                    VARO was necessary for us to gain an understanding of VARO mail
                    management, which was not included in our FY 2014 inspection protocols.
                    To conduct our review, we conducted a complete physical inspection of all
                    VARO workspace, including an off-site file storage area. We also
                    interviewed VARO staff and managers responsible for the oversight and
                    processing of mail at the Atlanta VARO.

Review              Based on our work, we did not substantiate the allegations of deceptive mail
Results             management practices at the Atlanta VARO. We could not attest to

VA Office of Inspector General                                                                 16
                                                                 Inspection of the VARO Atlanta, GA


                    conditions present during the Under Secretary for Benefits’ visit in
                    July 2013 because we were not on-site at this time. However, we found no
                    boxes of unprocessed mail stored in file cabinets, on shelves, or on the floor.
                    Nor did we find boxes of mail mislabeled as “drop mail.” We also
                    determined through interviews that VARO managers did not advise staff to
                    hide mail from the view of the Undersecretary for Benefits, or prevent her
                    access to areas where mail was allegedly hidden during her visit.

                    We did observe approximately 2,900 boxes of claims folders and processed
                    mail that a contractor had returned to the VARO for storage after scanning
                    the documents into the electronic system. VARO staff advised us they were
                    responsible for housing the 2,900 boxes of claims folder and mail until VBA
                    decided what to do with them. The storage of the 2,900 boxes did not appear
                    to present safety or security concerns; however, we cautioned that VARO
                    officials should continue to follow up with VBA on the disposition of the
                    boxes to avoid potential security and safety concerns in the future.

                    Because we did not substantiate the allegations,              we    made    no
                    recommendation for improvement and closed our review.




VA Office of Inspector General                                                                  17
                                                                Inspection of the VARO Atlanta, GA


Appendix A          VARO Profile and Scope of Inspection

Organization        The Atlanta VARO administers a variety of services and benefits, including
                    compensation and pension benefits; vocational rehabilitation and
                    employment assistance; benefits counseling; and outreach to homeless,
                    elderly, Native American, minority, and women veterans.

Resources           As of January 11, 2014, the Atlanta VARO reported a staffing level of
                    763.5 full-time employees. Of this total, the VSC had 410.3 employees
                    assigned.

Workload            As of January 2014, the VARO reported 28,746 pending compensation
                    claims. On average, claims were pending 172 days, 57 days more than the
                    national target of 115 days.

Scope and           VBA has 56 VAROs and a VSC in Cheyenne, Wyoming, that process
Methodology         disability claims and provide a range of services to veterans. In January and
                    February 2014, we evaluated the Atlanta VARO to see how well it
                    accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to the indicators of fraud in claims processing.

                    Our review included 30 (30 percent) of 806 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months or more as of
                    December 2, 2013. This is generally the longest period a temporary
                    100 percent disability evaluation may be assigned without review, according
                    to VBA policy. We provided VARO management with 776 claims
                    remaining from our universe of 806 for its review. We reviewed
                    30 (31 percent) of 98 TBI-related disability claims that the VARO completed
                    from July through September 2013. We examined 30 (23 percent) of
                    133 veterans’ claims involving entitlement to SMC and related ancillary
                    benefits that VARO staff completed from October 2012 through
                    September 2013.

                    Prior to VBA consolidating Fiduciary Activities, nationally each VARO was
                    required to complete 12 SAOs. However, since the Fiduciary consolidation,
                    the VAROs are now only required to complete 11 SAOs. Therefore, we
                    reviewed 11 SAOs related to VARO operations. Additionally, we looked at
                    30 (48 percent) of 63 completed claims that proposed reductions in benefits.

VA Office of Inspector General                                                                 18
                                                                 Inspection of the VARO Atlanta, GA


                    Where we identify potential procedural inaccuracies, we provided this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VAROs to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We also
                    assessed whether the data contained obvious duplication of records,
                    alphabetic or numeric characters in incorrect fields, or illogical relationships
                    among data elements. Further, we compared veterans’ names, file numbers,
                    Social Security numbers, VARO numbers, dates of claim, and decision dates
                    as provided in the data received with information contained in the 90 claims
                    folders we reviewed related to temporary 100 percent disability evaluations,
                    TBI, SMC and ancillary benefits, and completed claims related to benefits
                    reductions.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders we reviewed did not disclose any
                    problems with data reliability.

                    As reported by VBA’s Systemic Technical Accuracy Review program as of
                    January 2014, the overall accuracy of the Atlanta VARO’s compensation
                    rating-related decisions was 85.2 percent—8.8 percentage points below
                    VBA’s FY 2014 target of 94 percent. We did not test the reliability of this
                    data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.




VA Office of Inspector General                                                                   19
                                                                               Inspection of the VARO Atlanta, GA


Appendix B               Inspection Summary

                         Table 2 reflects the operational and administrative activities inspected,
                         applicable criteria, and whether or not we had reasonable assurance of
                         VARO compliance. Sampled claims are at higher risk of processing errors,
                         thus these results do not represent the overall accuracy of disability claims
                         processing at this VARO.

                             Table 2. Atlanta VARO Inspection Summary

      Operational                                     Criteria                                  Reasonable
       Activities                                                                               Assurance of
       Inspected                                                                                Compliance
    Disability
    Claims
    Processing
                           Determine whether VARO staff properly reviewed temporary
    Temporary
                           100 percent disability evaluations. (38 CFR 3.103(b))
    100 Percent
    Disability
                           (38 CFR 3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV,                      No
                           Subpart ii, Chapter 2, Section J) (M21-1MR Part III,
    Evaluations
                           Subpart iv, Chapter 3, Section C.17.e)
                           Determine whether VARO staff properly processed claims for
    Traumatic Brain
    Injury Claims
                           service connection for all disabilities related to in-service TBI.       No
                           (FL 08-34 and 08-36) (Training Letter 09-01)
                           Determine whether VARO staff properly processed SMC and
    Special Monthly
                           correctly granted entitlement to ancillary benefits. (38 CFR
    Compensation and
                           3.350, 3.352, 3.807, 3.808, 3.809, 3.809a, 4.63, and 4.64)               No
    Ancillary Benefits
                           (M21-1MR IV.ii.2.H and I)
    Management
    Controls
    Systematic             Determine whether VARO staff properly performed formal
    Analysis of            analyses of their operations through completion of SAOs.                 Yes
    Operations             (M21-4, Chapter 5)
                           Determine whether VARO staff timely and accurately
                           processed disability evaluation reductions or terminations.
                           (38 CFR 3.103(b)(2)), (38 CFR 3.105(e), (38 CFR 3.501),
    Benefit Reductions     (M21-1MR.IV.ii.3.A.3.e), (M21-1MR.I.2.B.7.a),                            No
                           (M21-1MR.I.2.C), (M21-1MR.I.ii.2.f), (M21-4,
                           Chapter 2.05(f)(4)), (Compensation & Pension Service
                           Bulletin, October 2010)
   Source: VA OIG
   CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                                 20
                                                                        Inspection of the VARO Atlanta, GA


Appendix C             VARO Director’s Comments



                  Department of
                  Veterans Affairs
                                                              Memorandum
          Date:       July 10, 2014

          From:       Director, VA Regional Office Atlanta, Georgia

          Subj:       Inspection of the VA Regional Office, Atlanta, Georgia

            To:       Assistant Inspector General for Audits and Evaluations (52)


                   1. The Atlanta VARO’s comments are attached on the OIG Draft Report:
                      Inspection of the VA Regional Office, Atlanta, Georgia

                   2. Please refer questions to Steve Furrer, Assistant Director, 404-929-5818.



                      (Original signed)
                      A. Bocchicchio

                      Director





                      Attachment




VA Office of Inspector General                                                                         21
                                                                     Inspection of the VARO Atlanta, GA


                                                                                             Attachment

    OIG Recommendations

    Recommendation 1: We recommend the Atlanta VA Regional Office Director develop and
    implement a plan to ensure timely and appropriate action on reminder notifications for medical
    reexaminations.

    Atlanta RO Response: Concur

    The Veterans Service Center (VSC) disseminated a directive dated July 1, 2014, which assigns the
    medical reexaminations to the Express Teams. In addition, refresher training was conducted with all
    members of the Express teams on July 1, 2014, to explain their role in the processing of this
    workload. The training covered the review and disposition of the 800 series work item and the
    establishment of and process for any rating end product associated with this workload. This
    workload will be reviewed on a weekly basis by the Assistant Veterans Service Center Manager with
    oversight responsibility for the Express teams to ensure timely action is being taken.

    Recommendation 2: We recommend the Atlanta VA Regional Office Director develop and
    implement a plan to review for accuracy the 776 temporary 100 percent disability evaluations
    remaining from our inspection.

    Atlanta RO Response: Concur

    The VSC disseminated a directive dated July 1, 2014, which outlined the plan to complete the
    remaining temporary 100 percent disability evaluations from the inspection. The plan mandates that
    all initial reviews and required development actions will be taken by July 31, 2014, and that the
    claims will be completed by December 31, 2014. Weekly reports will be utilized to monitor progress
    against the plan and to identify any new temporary 100 percent disability evaluations for timely
    action.

    Recommendation 3: We recommend the Atlanta VA Regional Office Director provide refresher
    training for staff on processing traumatic brain injury claim and implement a plan to monitor the
    effectiveness of this training.

    Atlanta RO Response: Concur

    The VA Office of Inspector General (VAOIG) reviewed 30 claims involving traumatic brain injury
    (TBI) and cited eight of the cases as containing errors. Due to its complexity, this workload is
    considered at a higher risk for processing errors and does not represent the overall quality of work
    performed at the Atlanta Regional Office (RO). The Atlanta RO only concurred with three of the
    eight errors cited and the office provided its rationale for non-concurrence of the remaining five,
    which primarily result from a different interpretation of guidance provided by Compensation Service
    Training Letter 09-01. The five cases in question were reviewed by a subject matter expert from
    Compensation Service given the difference of opinion with the findings. The Compensation Service
    expert concluded the Atlanta RO was correct in its interpretation and application of VBA guidance.
    The Atlanta RO concurs that three cases need to be corrected.



VA Office of Inspector General                                                                         22
                                                                     Inspection of the VARO Atlanta, GA


    The Atlanta RO will conduct refresher training on TBI claims processing as the complexity of these
    claims is such that continual training is beneficial. The last instructor-led TBI class was conducted
    on April 29, 2014, for trainee VSRs. Refresher training will be conducted in August 2014 for VSRs
    and RVSRs. Beginning in FY15, TBI refresher training will be held twice each fiscal year. The
    effectiveness of this training will be tracked and monitored based on second signature reviews of
    this workload. Effective June 20, 2014, the Quality Review Team (QRT) is second-signing all TBI
    cases, regardless of individual employee accuracy, and maintains a spreadsheet to track the quality
    of the cases reviewed.

    Recommendation 4: We recommend the Atlanta VA Regional Office Director develop and
    implement a plan to ensure staff comply with the Veterans Benefits Administration’s
    second-signature requirements for traumatic brain injury claims, including tracking and trending
    errors in processing these claims to identify local training needs.

    Atlanta RO Response: Concur

    All TBI rating decisions are being reviewed and second-signed, regardless of individual employee
    accuracy, effective June 20, 2014. These claims are tracked to identify common errors and trends.
    The QRT Coach will review the tracking spreadsheet for common errors made by RVSR/DROs and
    provide refresher training in August 2014. The spreadsheet will monitored on an ongoing basis and
    trends noted will be included in the bi-annual TBI training. A VSC directive dated July 1, 2014,
    outlines this plan and was disseminated to all employees.

    Recommendation 5: We recommend the Atlanta VA Regional Office Director develop and
    implement a plan to ensure staff receive refresher training on identifying and returning insufficient
    medical examination reports related to traumatic brain injury claims to medical facilities for
    correction.

    Atlanta RO Response: Concur

    The VA Office of Inspector General (VAOIG) reviewed 30 claims involving traumatic brain injury
    (TBI) and cited eight of the cases as containing errors. Due to its complexity, this workload is
    considered at a higher risk for processing errors and does not represent the overall quality of work
    performed at the Atlanta Regional Office (RO). The Atlanta RO only concurred with three of the
    eight errors cited and the office provided its rationale for non-concurrence of the remaining five,
    which primarily result from a different interpretation of guidance provided by Compensation Service
    Training Letter 09-01. The five cases in question were reviewed by a subject matter expert from
    Compensation Service given the difference of opinion with the findings. The Compensation Service
    expert concluded the Atlanta RO was correct in its interpretation and application of VBA guidance.
    The Atlanta RO concurs that three cases need to be corrected.

    The Atlanta RO will continue to conduct training on ordering and interpreting VA examinations and
    just recently certified that 222 employees have conducted VA Examination/Medical Opinion
    Clarification training (TMS #3879541) as of June 30, 2014. The TBI 2 nd Level Review Tracker will
    be monitored monthly to assess if there are any exam insufficiencies noted. Training on exam
    insufficiencies will be conducted, if warranted, during the bi-annual TBI training conducted each
    fiscal year.




VA Office of Inspector General                                                                         23
                                                                      Inspection of the VARO Atlanta, GA


    Recommendation 6: We recommend the Atlanta VA Regional Office Director ensure claims
    processing staff receive refresher training on processing special monthly compensation and ancillary
    benefits.

    Atlanta RO Response: Concur

    VAOIG reviewed 30 claims involving Special Monthly Compensation (SMC) and Ancillary Benefits
    and cited nine of the cases as containing errors. Due to its complexity, this workload is considered
    at a higher risk for processing errors and does not represent the overall quality of work performed at
    the Atlanta Regional Office.

    The Atlanta RO will provide refresher training on SMC cases. Refresher training for RVSRs on SMC
    claims will be held no later than July 31, 2014, and annually thereafter. The training will encompass
    not only the processing of SMC cases, but also the utilization of hospital codes and the SMC
    calculator.

    Recommendation 7: We recommend that Atlanta VA Regional Office Director promote staff
    awareness of the second-signature review policy for processing special monthly compensation and
    ancillary benefits and ensure that qualified staff conduct the secondary reviews.

    Atlanta RO Response: Concur

    A VSC directive dated July 1, 2014, mandates that all higher level SMC cases will be second-signed
    by the QRT. The data from these reviews will be tracked on the In-Progress Review Tracker
    maintained by the QRT. Error trends identified will be included in the station’s annual SMC training.

    Recommendation 8: We recommend the Atlanta VA Regional Office Director implement a plan to
    ensure claims processing staff prioritize actions related to benefit reductions to minimize improper
    payments to veterans.

    Atlanta RO Response: Concur

    On April 3, 2014, VBA guidance (M21-1MR, Part 1, 2.B.7.a) was modified to no longer state
    ‘immediate action’ in regards to processing benefit reductions. The current guidance states that
    Supervisors and VSRs are responsible for enduring maturing EP 600s are identified and routed for
    action. The Atlanta RO followed all national workload directives on reducing the backlog since
    March 2013.

    The Atlanta RO will establish an updated plan to process benefit reductions timely. The Atlanta
    RO’s workload management plan will be updated to properly identify who has responsibility over
    benefit reductions and provide timeframes for action. The updated workload management plan will
    be implemented by July 31, 2014.




VA Office of Inspector General                                                                          24
                                                       Inspection of the VARO Atlanta, GA


Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact	       For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Nora Stokes, Director
                                         Kristine Abramo
                                         Nelvy Viguera Butler
                                         Kelly Crawford
                                         Ramon Figueroa
                                         Kerri Leggiero-Yglesias
                                         Lisa Van Haeren
                                         Mark Ward




VA Office of Inspector General                                                        25
                                                              Inspection of the VARO Atlanta, GA


Appendix E          Report Distribution
                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Southern Area Director
                    VA Regional Office Atlanta Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Saxby Chambliss, Johnny Isakson
                    U.S. House of Representatives: John Barrow, Sanford D. Bishop, Jr.,
                     Paul C. Broun, Doug Collins, Phil Gingrey, Tom Graves,
                     Henry C. “Hank” Johnson, Jr., Jack Kingston, John Lewis, Tom Price,
                     Austin Scott, David Scott, Lynn A. Westmoreland, Robert Woodall




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               26
